CERTIFICATE OF SERVICE
No. TBD
Arthur Edward Ezor

Petitioners)
v.
Superior Court of Los Angeles County
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Arthur
Edward Ezor Petition for Extraordinary Writ of Mandamus, by mailing three (3) true and
correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Craig E. Veals
Superior Court of Los Angeles County
210 West Temple Street, Dept. 122
Los Angeles, CA 90012
Counsel for Superior Court ofLos Angeles County

Xavier Becerra
300 S. Spring St.
Suite 5000
Los Angeles, CA 90013
Counselfor People of California

Kelly Howick
Office of the District Attorney
211 West Temple Street
Suite 200
Los Angeles, CA 90012
Counsel for Los Angeles County Dist. Atty.

Lucas©eDeus

September 11, 2019
SCP Tracking: Ezor-305 S. Hudson Avenue-Cover White

